<html>
<title> - From NPOESS to JPSS: An Update on the Nation's Restructured Polar Weather Satellite Program</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                          FROM NPOESS TO JPSS:
                 AN UPDATE ON THE NATION'S RESTRUCTURED
                    POLAR WEATHER SATELLITE PROGRAM

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                                  AND

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       FRIDAY, SEPTEMBER 23, 2011

                               __________

                           Serial No. 112-39

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

68-320 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DONNA F. EDWARDS, Maryland
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas















                            C O N T E N T S

                           September 23, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    18
    Written Statement............................................    19

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    22
    Written Statement............................................    23

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    20
    Written Statement............................................    21

                               Witnesses:

The Honorable Kathryn Sullivan, Ph.D., Assistant Secretary of 
  Commerce for Environmental Observation and Prediction and 
  Deputy Administrator, National Oceanic and Atmospheric 
  Administration
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. Christopher Scolese, Associate Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    43
    Written Statement............................................    44

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    46
    Written Statement............................................    48

             Appendix I: Answers to Post-Hearing Questions

The Honorable Kathryn Sullivan, Ph.D., Assistant Secretary of 
  Commerce for Environmental Observation and Prediction and 
  Deputy Administrator, National Oceanic and Atmospheric 
  Administration.................................................    76

Mr. Christopher Scolese, Associate Administrator, National 
  Aeronautics and Space Administration...........................   107

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office.......................   111

            Appendix II: Additional Material for the Record

Submitted Report for the Record, ``NASA's Management of the 
  NPOESS Preparatory Project''...................................   113

 
                          From NPOESS to JPSS:
                 An Update on the Nation's Restructured
                    Polar Weather Satellite Program

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2011

                  House of Representatives,
          Subcommittee on Investigations and Oversight, and
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.
    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Investigations and Oversight] 
presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Broun. The Subcommittee on Investigations and 
Oversight and the Subcommittee on Energy and Environment will 
come to order.
    Good morning, everyone. Welcome to today's hearing entitled 
``From NPOESS to JPSS: An Update on the Nation's Restructured 
Polar Weather Satellite Program.'' In front of you are packets 
containing the written testimony, biographies and truth in 
testimony disclosures for today's witness panel.
    Before we get started, since this is a joint hearing 
involving two subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the question 
and answer period will be handled. As always, we will alternate 
between the majority and the minority Members and allow all 
Members an opportunity for questioning before recognizing a 
Member for a second round of questions, if we have time. We 
will recognize those Members of either Committee present at the 
gavel in order of seniority on the Full Committee and those 
coming in after the gavel will be recognized in the order of 
their arrival, and I recognize myself for myself for five 
minutes for an opening statement.
    The National Polar-orbiting Operational Environmental 
Satellite System, NPOESS, program was originally envisioned to 
reduce duplication and save $1.3 billion. Initial estimates for 
that program came in at $6.5 billion for six satellites, 
operating in three orbits, carrying 13 instruments, with the 
first satellite launched around 2010. The costs of the new 
Joint Polar Satellite System, or JPSS, are now more than double 
the costs of the original program, but that doesn't fully 
reflect the dire straits the program is truly in. With JPSS, 
NOAA is only planning to operate three satellites in one orbit, 
one of which is technically a NASA research satellite. If you 
were to add the costs of the Department of Defense and European 
portions of the system, which were originally parts of NPOESS, 
the costs would be much higher, roughly $17 billion when you 
add the Defense Weather Satellite System and well over $20 
billion when you add the cost of what the Europeans spent on 
MetOp. Aside from cost, the schedules have been delayed, and 
gaps in data coverage are looming.
    To date, the Federal Government has spent over $6 billion 
on the NPOESS and JPSS programs, and the only thing we have to 
show for it is a modified research satellite that hopefully 
will launch next month. In the past, the program was troubled 
by interagency bickering, overly optimistic cost estimates, lax 
oversight and technical complexity. More recently, the 
uncertain fiscal environment has also challenged the program.
    NOAA's testimony states the projected gap in services is 
due to ``the lack of adequate, timely and stable appropriated 
funds.'' In my mind, if the program had actually delivered on 
its cost, schedule and performance, we would not be in this 
position right now. Unfortunately, we are in this position, and 
there is certainly enough blame to go around. Multiple 
Administrations and Congresses controlled by both Republicans 
and Democrats, numerous contractors, and multiple agencies all 
have had a hand in this program. The new problems faced by this 
program are the result of a perfect storm of factors: a drastic 
reorganization, a scheduled ramp-up in development costs and 
flat funding from Continuing Resolutions.
    This Committee has been consistent in both its support, and 
its oversight of NPOESS and JPSS. This is evidenced by the 
Committee's Views and Estimates that call for full funding of 
JPSS, and the fact that this is the Committee's eighth hearing 
on the topic.
    At a hearing on NPOESS two years ago, I asked the questions 
``how did we get here?'' and ``where do we go from here?'' At 
last year's hearing, I asked ``where are we going?'' 
Unfortunately, I still don't have an answer to that question.
    Nearly two years after the President reorganized the 
program, we still do not have a baseline. As GAO will state in 
their testimony, ``It is still not clear what the programs will 
deliver, when, and at what cost.'' This is despite the fact 
that the NASA Authorization Act of 2005 and the Consolidated 
Appropriations Act of 2008 requires both NASA and NOAA to 
provide program baselines. NOAA contends that they cannot 
develop a credible baseline for costs and capabilities without 
a stable and predictable budget horizon. On the other hand, 
Congress remains skeptical of entrusting the taxpayers' money 
with a program that has proven to be a poor steward of scarce 
resources without having firm cost, schedule and performance 
metrics to hold the program accountable to.
    I look forward to working with the Administration as we 
move forward. As I have said at previous hearings, every 
American is impacted by this program whether they know it or 
not. It is our responsibility to ensure that the farmers, the 
fisherman, the hunters, the war fighters and everyday commuters 
continue to receive weather and climate information. But we 
must not forget to be good stewards of taxpayers' money as 
well.
    [The prepared statement of Mr. Broun follows:]
               Prepared Statement of Chairman Paul Broun
    The National Polar-orbiting Environmental Satellite System (NPOESS) 
program was originally envisioned to reduce duplication and save $1.3 
billion dollars. Initial estimates for that program came in at $6.5 
billion for six satellites, operating in three orbits, carrying 13 
instruments, with the first satellite launched around 2010. The costs 
of the new Joint Polar-orbiting Satellite System (JPSS) are now more 
than double the costs of the original program, but that doesn't fully 
reflect the dire straits the program is truly in. With JPSS, NOAA is 
only planning to operate three satellites in one orbit (one of which is 
technically a research satellite). If you were to add the costs of the 
Department of Defense (DOD) and European portions of the system, which 
were originally parts of NPOESS, the costs would be much higher--
roughly $17 billion when you add the Defense Weather Satellite System 
(DWSS), and well over $20 billion when you add the cost of what the 
Europeans spent on MetOp. Aside from cost, the schedules have been 
delayed, and gaps in data coverage are looming.
    To date, the federal government has spent over $6 billion on the 
NPOESS and JPSS programs, and the only thing we have to show for it is 
a modified research satellite that hopefully will launch next month. In 
the past, the program was troubled by inter-agency bickering, overly 
optimistic cost estimates, lax oversight, and technical complexity. 
More recently, the uncertain fiscal environment has also challenged the 
program.
    NOAA's testimony states the projected gap in services is due to 
``the lack of adequate, timely, and stable appropriated funds.'' In my 
mind, if the program had actually delivered on its cost, schedule, and 
performance, we wouldn't be in this position. Unfortunately, we are in 
this position, and there is certainly enough blame to go around. 
Multiple Administrations and Congresses controlled by both Republicans 
and Democrats, numerous contractors, and multiple agencies all had a 
hand in this program. The new problems faced by this program are the 
result of a perfect storm of factors: a drastic reorganization, a 
scheduled ramp-up in development costs, and flat funding from 
Continuing Resolutions. This Committee has been consistent in both its 
support, and it's oversight of NPOESS and JPSS. This is evidenced by 
the Committee's Views and Estimates that call for full funding of JPSS, 
and the fact that this is the Committee's eighth hearing on the topic.
    At a hearing on NPOESS two years ago I asked the questions `how did 
we get here?' and `where do we go from here?' At last year's hearing I 
asked `where are we going?' Unfortunately, I still don't have an answer 
to that question. Nearly two years after the President reorganized the 
program, we still do not have a baseline. As GAO will state in their 
testimony, ``it is still not clear what the programs will deliver, 
when, and at what cost.'' This is despite the fact that the NASA 
Authorization Act of 2005 and the Consolidated Appropriations Act of 
2008 requires both NASA and NOAA to provide program baselines. NOAA 
contends that they cannot develop a credible baseline for costs and 
capabilities without a stable and predictable budget horizon. On the 
other hand, Congress remains skeptical of entrusting the taxpayers 
money with a program that has proven to be a poor steward of scarce 
resources without having firm cost, schedule and performance metrics to 
hold the program accountable to.
    I look forward to working with the Administration as we move 
forward. As I've said at previous hearings, every American is impacted 
by this program whether they know it or not. It is our responsibility 
to ensure that the farmers, fisherman, war-fighters, and everyday 
commuters continue to receive weather and climate information. But we 
must not forget to be good stewards of taxpayers' money as well.

    Chairman Broun. Now the Chair recognizes Mr. Miller for an 
opening statement. Mr. Miller, you are recognized for five 
minutes.
    Mr. Miller. Thank you, Dr. Broun. Good morning. I want to 
thank the two Chairs of the Subcommittees for calling this 
hearing. This certainly continues to be a subject that needs 
our time and attention, and I know that Ms. Edwards may be late 
but she would join with me in congratulating NOAA and NASA on 
the good work they have done in the last year trying to get 
this project back on track. It is undoubtedly true, as Chairman 
Broun has said, that this remains a snake-bit project but it 
appears that because of your efforts, it is being bitten by 
fewer and less-venomous snakes, and sometimes you just have to 
celebrate small victories. This is a project that needs to 
succeed. We need the data that these satellites will promise.
    The Science Committee has devoted years of oversight to the 
satellite program. When I was Chairman of the Investigations 
and Oversight Subcommittee, I led much of the work on that with 
bipartisan support from Dr. Broun and from Mr. Sensenbrenner. 
The relentless pressure from this Committee and from GAO helped 
create the environment in which the program could be 
restructured and which we recognized the changes had to happen, 
and NOAA and NASA were put in charge of their own fates.
    Once in charge of their own fates, however, our friends on 
the Appropriations Committee did drop the ball by failing to 
fund this program fully. Decisions have consequences, and that 
one short-sighted choice means that there will be gaps in 
weather and climate forecasting data. I hope we can build 
consensus support for this program, for a reform program, so 
that we never again have to ask that NOAA and NASA push back 
delivery of the first JPSS satellite.
    This Committee's first hearing on this subject was in 2003, 
my first year in Congress. It does feel like some things never 
change here. At that time, the launch date for the first NPOESS 
satellite was projected to be 2009, and here we are in 2011, as 
Chairman Broun has already said, and now the first JPSS 
satellite, the renamed satellite, is not scheduled to launch 
until 2017. We are eight years beyond our first hearing but 
remain six years away from the launch of the first next-
generation power satellite. This pattern of delay must change, 
and the decisions made by NOAA and NASA during the last year 
suggest that they do understand the importance of changing 
that. NOAA and NASA had made some smart choices as far, as we 
can tell, and they have put us on a path that will prevent a 
data gap in the next few months. However, the appropriations 
shortfall has ensured that a gap will happen, now projected for 
2016 until 2017. That gap will mean that we will see a decline 
in the accuracy of forecasts beyond the two to four day window 
that our satellites and weather sensors support. We must do any 
and everything we can to ensure that American taxpayers, 
American travelers, American business sectors that are so 
dependent upon weather forecasts do get the short- and long-
term forecasts that are critical to saving lives and protecting 
property and planning business activities around.
    This year alone, the country has witnessed in every region 
and on every coastline some of the most extreme record-breaking 
weather events. The more warning we have, the better decisions 
public officials can make about public safety and the better 
choices our businesses can make. The idea of not fully funding 
the satellite program is unacceptable. It is remarkably 
shortsighted. The delays, lack of baseline, and cost overruns 
we will hear about today are important; but the most important 
fact is that the budget shortfall delivered in the fiscal year 
2011 budget is going to produce a weather data gap and any 
future shortfalls will create an even greater gap. In failing 
to support the program, we are putting our lives, our property, 
and critical infrastructure in danger, and without accurate and 
timely information, we would no longer see accurate, advanced 
warnings of extreme events. This will make it extremely 
difficult to conduct safe and strategic evacuations of American 
people from coastal areas and elsewhere.
    I hope we will spend our time today trying to deal with the 
needs of this program as it is, agreeing where we need to go 
and determining to make sure that we all work together to get 
there. This program in my first term was a program that was 
snake-bit and a Republican President but there was never any 
suggestion that this was a partisan failure and it is not a 
partisan failure now. It is something we should all be trying 
to make work because too much of America depends upon this 
data.
    Finally, I want to encourage NOAA and NASA to take every 
step they can responsibly, that they can responsibly take, to 
narrow the projected gap in data that we anticipate after March 
of 2016. If you need help in getting what you need, please tell 
us, please ask us to help.
    I now yield back to the Chairman my negative 26 seconds.
    [The prepared statement of Mr. Miller follows:]
            Prepared Statement of Ranking Member Brad Miller
    Good morning. I want to thank both Chairs for calling this hearing 
today. This is certainly a subject worthy of our time. I also want to 
join my colleague, Ms. Edwards, in congratulating NOAA and NASA on the 
good work they have done throughout this past year getting this project 
back on track.
    The Science Committee has devoted years of oversight to this 
satellite program. During my tenure as Chairman of the Investigations 
and Oversight Subcommittee, I led much of the work on this--with 
bipartisan support from my Ranking Members, both Mr. Sensenbrenner and 
Mr. Broun. The relentless pressure from this Committee and from GAO 
helped create the environment in which the program could be 
restructured and NOAA and NASA put in charge of their own fates. Once 
in charge of their own fates however, our friends on Appropriations 
dropped the ball by failing to fully fund this program.
    Decisions have consequences, and that one short-sighted choice 
means that there will be gaps in weather and climate furcating data. I 
hope we can build consensus support for this program so that we never 
again have to ask the NOAA and NASA to push back delivery of the first 
JPSS satellite.
    The Committee's first hearing on this subject was in 2003, my first 
year in Congress. At that time, the launch date for the first NPOESS 
satellite was projected to be 2009. Here we are in 2011 and now the 
first JPSS satellite is not slated to launch until 2017. We are eight 
years beyond our first hearing but remain six years away from the 
launch of the first next generation polar satellite. This pattern of 
delay is must change, and the decisions made by NOAA and NASA during 
the last year suggest that they understand this.
    They have made smart choices, as far as we can tell, and they have 
us on a path that will prevent a data gap in the next few months.
    However, the appropriations shortfall has ensured that a gap will 
occur--now projected for 2016 and into 2017. That gap will mean that we 
will see a decline in the accuracy of forecasts beyond the two to four 
day window that our other satellites and weather sensors support.
    We must do any and everything we can to ensure that American 
taxpayers, American travelers, and American business sectors are 
supplied the short--and long--term weather forecasts that are critical 
to saving lives and protecting property. This year alone, this country 
has witnessed in every region and on every coastline some of the most 
extreme, record-breaking weather events. The more warning we have the 
better decisions public officials can make about public safety and the 
better choices our businesses can make.
    The idea of not fully funding this satellite program is totally 
unacceptable. The delays, lack of a baseline, and cost overruns we will 
hear about today are important; but the most important fact is that the 
budget shortfall delivered up in FY2011 is going to produce a weather 
data gap and any future shortfalls will create an even greater gap.
    In failing to support this program, we are putting our lives, 
property, and critical infrastructure in danger. Without accurate and 
timely information, we would no longer see accurate advance warnings of 
extreme events. This will make it extremely difficult to conduct safe 
and strategic evacuations of American people. I hope we will spend our 
time today dealing with the needs of this program as it is, agreeing 
where we need to go, and determining to make sure we all work together 
to get there.
    Finally, I want to encourage NOAA and NASA to take every step they 
can responsibly take to narrow the projected gap in data that we 
anticipate after March of 2016. If you need help in getting what you 
need, please ask us for that assistance.
    Yield back.

    Chairman Broun. Well, thank you, Mr. Miller. You know I 
have never kept a tight time clock on you.
    I now recognize the Chairman of the Subcommittee on Energy 
and Environment, Dr. Harris, for his opening statement. Dr. 
Harris, you are recognized for five minutes.
    Mr. Harris. Thank you very much, Mr. Chairman. I will be 
brief.
    Good morning. I want to thank our witnesses for being here 
today to testify on the Joint Polar Satellite System. I do 
appreciate you taking time from what have to be busy schedules 
to appear with us this morning.
    You know, the most critical issue facing our Nation today 
is out-of-control spending by the Federal Government. Knowing 
that we cannot spend more than we have should seem like pretty 
simple math, but it has taken dire economic conditions for some 
folks to wake up and take notice. In these times, it is even 
more important than ever that the money we do spend is spent 
wisely and efficiently.
    You know, the JPSS program does appear to be the poster 
child of a runaway government program that has overpromised, is 
over budget, and honestly has underperformed. While the White 
House's decision to split apart the defense and civilian 
satellite programs last year may have been the correct one, the 
lack of understanding about the complexity of that transition 
and insufficient planning appears to have contributed to even 
further delays and what is turning into even a more costly 
program.
    Now, there is no doubt that weather satellites play a vital 
role in keeping the country informed and safe. However, given 
the number of problems this program has experienced, the time 
has come to talk about what is the best way for NOAA to obtain 
the necessary data to make these forecasts. And by best way, I 
do mean the most efficient and cost-effective way. As Chairman 
of the Energy and Environment Subcommittee, I want to 
understand what policies got us in this mess to begin with and 
how do we avoid the same problems in the future because as the 
Ranking Member said, this is a project that does need to 
succeed.
    The Executive Order to combine the defense and civilian 
satellite programs was issued in 1994 but the first satellite, 
a research- turned-operational satellite, is set to launch just 
this year. It has taken these government agencies 17 years to 
go from the initial order to the actual launching of a 
satellite. Given this record, it appears that NOAA actually 
needs to start thinking now what it will do to obtain the 
necessary data when the JPSS satellites are no longer 
functional 17 years from now, assuming they last that long.
    Honestly, we no longer have the luxury to blindly 
appropriate funding for any program in the government, no 
matter how essential. Careful planning, realistic expectations, 
and innovative, outside-the-box type of thinking will be 
required in order to ensure weather forecasting capabilities in 
the future.
    Thank you again for your time, and I yield back the balance 
of my time.
    [The prepared statement of Mr. Harris follows:]
Prepared Statement of Chairman Andy Harris, Subcommittee on Energy and 
                              Environment
    Good morning. I want to thank our witnesses for being here today to 
testify on the Joint Polar Satellite System, or JPSS. I appreciate you 
taking time from your busy schedules to appear before us this morning.
    The most critical issue facing our nation today is out-of-control 
spending by the Federal government. Knowing that we cannot spend more 
than we have should seem like pretty simple math, but it has taken dire 
economic conditions for some folks to wake up and notice. In these 
times, it is even more important that the money we do spend is spent 
wisely and efficiently.
    The JPSS program is the ultimate example of a runaway government 
program that has over promised, is over budget, and has underperformed. 
While the White House's decision to split apart the defense and 
civilian satellite programs in February 2010 may have been the correct 
one, the lack of understanding about the complexity of transition and 
insufficient planning have contributed to even further delays and a 
more costly program.
    There is no doubt that weather satellites play a vital role in 
keeping the country informed and safe. Severe weather jeopardizes human 
health, costs billions of dollars every year, and has a significant 
impact on our economic vitality. The ability to do timely and accurate 
weather forecasting is not at question here, and should not be 
compromised. However, given the number of problems this program has 
experienced, the time has come to talk about what is the best way for 
NOAA to obtain the necessary data to do these forecasts. And by best 
way, I mean the most efficient and cost effective way.
    I am pleased we are having this hearing today, and I commend the 
Chairman of the Investigations and Oversight Subcommittee on his 
continued work ensuring that Federal science and technology programs 
are appropriate, cost-effective, and are managed properly. As Chairman 
of the Energy and Environment Subcommittee, I want to understand what 
policies got us in this mess to begin with, and how do we avoid the 
same problems in the future. The JPSS program will only give us two 
satellites for a cost of more than double its initial estimates. 
However, without a baseline for this program, it is impossible to say 
what the ultimate costs will be.
    The witnesses from this Administration will likely blame ``budget 
uncertainty'' from this Congress for the planning failures of JPSS, but 
providing a basic and reasonable baseline for a project is something 
that every business in the country has to do.
    The Executive Order to combine the defense and civilian satellite 
programs was issued in 1994. The first satellite--a research turned 
operational satellite--is set to launch later this year. It has taken 
these government agencies seventeen years to go from the initial order 
to the launching of a satellite. Given this record, NOAA needs to start 
thinking now what it will do to obtain the necessary data when the JPSS 
satellites are no longer functional seventeen years from now--assuming 
they last that long.
    We no longer have the luxury to continuously appropriate funding 
for programs like this. Careful planning, realistic expectations, and 
outside-the-box type of thinking will be required in order to ensure 
continued and advancing weather forecasting capabilities in the future.
    Thank you again for your time.

    Chairman Broun. Thank you, Dr. Harris.
    If there are any Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this point I would like to introduce our witness panel. 
Our first witness is the Hon. Kathryn Sullivan, Dr. Kathryn 
Sullivan, Assistant Secretary of Commerce for Environmental 
Observation and Prediction, and Deputy Administrator at the 
National Oceanic and Atmospheric Administration. Our second 
witness is Mr. Christopher Scolese, Associate Administrator for 
the National Aeronautics and Space Administration, and our 
third and final witness is Mr. David Powner, Director of 
Information Technology Management Issues at the Government 
Accountability Office.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will each have five minutes, or we may shorten that due to time 
and votes that are predicted to occur somewhere around 11:00.
    It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have objections to taking an oath? No? Let the record reflect 
that all witnesses are willing to take an oath by their heads 
being shook from side to side in the traditional method of 
saying no. You may also be represented by counsel. Do any of 
you have counsel here today? They all shake their heads side to 
side again. So let the record reflect that none of the 
witnesses have counsel.
    If all of you would please now stand and raise your right 
hand? Do you solemnly swear or affirm to tell the truth, the 
whole truth, so help you God? Be seated, please. Let the record 
reflect that all the witnesses participating have taken the 
oath.
    I now recognize our first witness, Dr. Sullivan. You may 
proceed. And as I said, we have got votes that are projected 
between 11:00 and maybe a little after, so if you all could 
hold to your five minute times or maybe even if you could 
shorten it up, please. Dr. Sullivan.

           TESTIMONY OF HON. KATHRYN SULLIVAN, PH.D.,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

  AND DEPUTY ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Dr. Sullivan. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you here today and discuss the 
status of the Joint Polar Satellite System.
    As was noted from the panel, the year 2011 has established 
itself in the record books as an historic year for weather-
related disasters. Truly, every state and territory has 
experienced some kind of severe weather event that has cost 
lives and exacted a high economic toll. As Deputy Administrator 
and frankly as an ordinary citizen, I am very proud of the 
unfailing dedication of NOAA's employees and contractors who 
provided the forecasts, watches and warnings that allowed 
people in these areas to take timely, lifesaving actions and 
enabled rapid response and recovery.
    Members of this Committee, as your remarks make clear, know 
all too well how critical the polar operational weather 
satellites are to our forecasting enterprise. Over 90 percent 
of the data that goes into numerical weather models comes from 
satellites and by far the largest proportion of that comes from 
the instruments aboard our polar orbiters. We would indeed lose 
the forecast reliability upon which preparedness response and 
the protection of life and property rest if we lost this unique 
source of critical environmental intelligence.
    I would like to take just a few moments to highlight some 
of the key developments that we have achieved during the past 
year. This week, NOAA completed the Level 1 Requirements 
Document for the JPSS program with formally validated and 
prioritized requirements and thus defines the scope and focus 
of the program. In order to collect and analyze these 
requirements, individuals from NOAA, NASA and the Defense 
Department were designated by their respective organizations to 
represent and communicate the needs of their users. With the 
recent transition of the Advanced Technology Microwave Sounder 
instrument through a NASA JPSS contract, NOAA and NASA have now 
completed the transition of all of the capabilities and assets 
that were designated for the JPSS program from the NPOESS 
program. This is a major accomplishment for both agencies, the 
Defense Department and our contractor companies. With this 
complete, NOAA and NASA have now returned to the weather 
satellite management and oversight structure that has served 
the Nation so well for many decades. Under this construct, NOAA 
retains the overall responsibility for the JPSS program while 
NASA serves as our acquisition agent.
    In addition, we are finalizing the management control plan 
that lays out in detail how the two agencies will work together 
to deliver JPSS. This document is currently being circulated 
for final review at both of our agencies and we expect to have 
it signed in the very near future.
    We all know that nothing gets done without talented staff, 
and the challenging meaningful work are what attract the best 
and brightest. NOAA and NASA management remain on constant 
alert to ensure that we have the right mix of skills and top-
notch talent working on this program in both the contractor and 
civil service ranks. We have been aided in this important task 
in fact by the NPP program. Put bluntly, NPP is not only 
bridging our data streams between our current polar orbiters 
and JPSS but frankly has served as a bridge for our workforce. 
I believe that this has helped us avert talent losses that we 
might otherwise have suffered due to budget uncertainties.
    Looking ahead, full funding at the President's fiscal year 
2012 budget request level would permit us to ramp up the 
workforce to levels needed to meet the current launch readiness 
date. This would be an increase of over 500 high-quality STEM 
jobs. Fiscal year 2011 budget uncertainties prevented us from 
taking these actions during that year.
    I am also pleased to report that Harry CiKanek started on 
September 12th as the Director of the Joint Polar Satellite 
System Office.
    In addition to those milestones, we have stood up the JPSS 
program office, fully staffed it with a competent and 
experienced NOAA/NASA team that leverages the expertise that 
had been acquired in the former NPOESS Integrated Program 
Office. We selected a spacecraft bus contractor. We have 
accelerated the fielding and testing of the ground system in 
preparation for the NPP launch so that we can use that data 
operationally, and we have completed all of the testing and 
preparation activities to support an on-time launch on October 
25th. I believe these milestones constitute a firm foundation 
for JPSS future program success.
    I would be remiss if I did not address the funding picture. 
The fiscal year 2011 Continuing Resolution levels fell well 
short of the amounts requested in the President's budget, and 
even after reprogramming, the JPSS program was unable to move 
forward at the rate needed to assure continuity of data. As 
noted from the Chair, we now face a near-certain gap of data in 
the 2016 time frame.
    In conclusion, I would like to reflect on why we are here 
today. Very soon after coming aboard this past May, I visited 
Joplin, Missouri. My trip came just days after a major tornado 
ripped through the town, cutting a swath more than 6 miles long 
and up to a mile wild. The utter devastation was mind boggling 
and heart wrenching. I was standing the Red Cross emergency 
shelter filled with hundreds of now-homeless people when a 
woman came out of her way towards me, took my hand in both of 
hers and looked up at me with tear-filled eyes. She had spotted 
the NOAA logo on my polo shirt and wanted to thank me for the 
warnings our National Weather Service teams had provided. These 
had saved her life, quite literally, and also given her time to 
gather a dozen of her neighbors under a sheltering staircase as 
the building came down around them. She knew all too clearly 
how much worse things might have been without NOAA's forecast 
and warning services.
    NOAA appreciates the Committee's continued interest in the 
success of the agency satellite programs. They are very 
complicated and difficult systems to build and field. We 
believe we are now on the right track, and though funding 
uncertainties continue to be a serious challenge, we remain 
hopeful that the fiscal year 2012 appropriations process will 
put the program on sound footing for mission success, and I 
will be happy to answer any of your questions.
    [The prepared statement of Dr. Sullivan follows:]

Prepared Statement of Hon. Kathryn Sullivan, Ph.D., Assistant Secretary

      of Commerce for Environmental Observation and Prediction and

 Deputy Administrator, National Oceanic and Atmospheric Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Broun. Thank you, Dr. Sullivan.
    I now recognize our second witness, Mr. Christopher 
Scolese. Sir, you may proceed. You are recognized for five 
minutes.

             TESTIMONY OF MR. CHRISTOPHER SCOLESE,

         ASSOCIATE ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Scolese. Thank you, Mr. Chairman and Members of the 
Subcommittee for the opportunity to appear today to share 
information regarding NASA's role in and commitment to NOAA's 
Joint Polar Satellite System program, JPSS.
    As has been stated, JPSS is essential to the Nation's 
weather forecasting system and is critical to the Nation's 
research activities in earth science. As the Nation's civil 
space agency, NASA is fully supporting JPSS on a reimbursable 
basis for NOAA.
    NOAA and NASA share a 40-year partnership developing the 
Nation's polar and geosynchronous weather satellites. That 
partnership continues as NOAA and NASA implement the 
restructuring of the NPOESS program. The 2010 restructuring of 
NPOESS resulted in the establishment of JPSS, as has been 
noted.
    In April 2010, NASA established the Joint Agency Satellite 
Division within our science mission directorate to assure that 
NASA effectively supported NOAA's requirements for JPSS. We 
refer to this office as JASD. This office is responsible for 
the cross-agency collaboration between NOAA and NASA and 
assures that senior NASA management up through the 
Administrator is aware of the progress and issues on this 
critical national program so they can be resolved quickly. The 
combined NOAA and NASA team is responsible for the formulation 
and implementation of all JPSS missions and their associated 
elements including the spacecraft, instruments, launch 
services, ground segments and post-launch support. Over the 
past year, NASA has worked closely with NOAA to put in place a 
high-caliber team of experienced personnel from both agencies 
to implement JPSS, and that team is working well.
    The initial focus of the JPSS team has been to complete 
activities required to support the upcoming launch of the 
NPOESS Preparatory Project satellite, NPP, as has been 
mentioned earlier. Originally, this was designed as a 
technology demonstration for NPOESS and to provide data 
continuity between key elements of NASA's earth-observing 
satellites and NPOESS, which was to replace those. NPP will now 
also serve as an operational bridge mission for the current 
polar weather satellites until the launch of the first JPSS 
mission.
    In addition to supporting the NPP mission, the JPSS team 
has focused the last 12 months on completing the transition of 
the program and contract elements from the former NPOESS 
program to the new JPSS program. As has been mentioned, the 
JPSS program is now of control of and managing all the 
instruments and ground system contracts. In September 2010, the 
JPSS program awarded a fixed-price contract for the JPSS-1 
spacecraft, a bus that is similar to the NPP spacecraft bus. 
That was done in order to reduce risk and uncertainty in both 
cost, schedule and technical.
    NASA shares NOAA's commitment to the success of the JPSS, 
as evidenced by the caliber of personnel assigned to the 
program and the continued support from NASA senior management. 
The requirements are defined, the program is in place, and with 
the requested funding we are confident that we can implement 
the JPSS program as planned. NOAA and NASA are striving to 
ensure that the Nation's weather and environmental requirements 
are met on the most efficient and predictable schedule without 
reducing system capabilities or further increasing risk. With 
the delivery of the NPP satellite to Vandenberg Air Force base 
on August 30th, the first fruits of the NOAA/NASA partnership 
for JPSS are undergoing final preparations for launch this 
October 25th. With your continued support, we expect this 
partnership to successfully develop and deliver the JPSS-1 
mission for launch in fiscal year 2017.
    Once again, thank you for the opportunity to testify today. 
I appreciate the support of this Committee and the Congress for 
NASA's programs and for JPSS and look forward to answering any 
of the questions you may have.
    [The prepared statement of Mr. Scolese follows:]
      Prepared Statement of Mr. Christopher J. Scolese, Associate 
      Administrator, National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to share information regarding the NASA 
role in, and commitment, to the National Oceanic and Atmospheric 
Administration (NOAA) Joint Polar Satellite System (JPSS) Program. JPSS 
is critical to the Nation's weather forecasting system, climate 
monitoring and research activities. As the Nation's civil space agency, 
NASA is fully supporting JPSS on a reimbursable basis for NOAA.

Background

    In February 2010, in conjunction with the FY 2011 Budget Request, 
the Administration directed a major restructuring of the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS). 
That decision was reaffirmed by the June 2012 National Space Policy. In 
April 2010, NASA established the Joint Agency Satellite Division (JASD) 
within its Science Mission Directorate to manage the NASA role as 
NOAA's acquisition agent for JPSS systems. Specifically, JASD was 
charged with managing the transition of NPOESS to the new JPSS, as well 
as for formulation and implementation of all JPSS missions and their 
associated elements, including instruments, spacecraft, launch 
services, the ground segment, and post-launch support. Since that time, 
NASA has worked with NOAA to put in place a high-caliber team of 
experienced personnel from both agencies to implement JPSS, and this 
team is working well.

JPSS Organization

    NASA and NOAA have been partners for over 40 years in developing 
the Nation's polar and geosynchronous weather satellites. With the 
President's direction last year, NASA and NOAA have returned to this 
successful partnership where NASA serves as the acquisition agent. The 
establishment of dedicated teams at both NASA Headquarters and the NASA 
Goddard Space Flight Center in Greenbelt, Maryland, has enabled a 
smooth transition to the new JPSS program.
    NASA and NOAA have established joint program management boards to 
direct JPSS, and have integrated their decision-making processes to 
efficiently and effectively manage this cooperative activity. The NASA 
and NOAA teams have demonstrated a strong working relationship over the 
last 18 months.

NPP

    The initial focus of the JPSS team has been to complete the 
activities required to support the launch of the NASA NPOESS 
Preparatory Project (NPP) satellite. NPP was originally designed as a 
technology demonstration for NPOESS and to provide data continuity 
between key elements of the NASA Earth Observing System (EOS) 
satellites and the first NPOESS satellite. NPP will fly the first 
copies of a new generation of Earth observing instruments, and we will 
spend the first 18 months comparing their performance with legacy 
sensors flying on NASA and NOAA satellites currently in orbit. The NPP 
mission is intended to characterize performance of these new sensors, 
providing feedback to improve the development of the operational 
sensors that will fly on JPSS. As these sensors are characterized and 
calibrated against the legacy sensors, data products from these sensors 
will be made available to the research and operational weather 
communities. While NPP was not intended to be used as an operational 
asset, our plan is to make data available to the NOAA operational 
weather community as soon as is practical, to serve as a bridge from 
the current polar weather satellites to the first JPSS mission in FY 
2017.
    In support of the NPP mission, JPSS is providing engineering 
support for three critical instruments provided by the NPOESS program 
and is continuing the development of the ground system that will 
operate NPP (as well as subsequent JPSS and the Defense Weather 
Satellite System (DWSS) spacecraft) and process the instrument data 
products. Last year, one of our major concerns with the transition from 
NPOESS to JPSS was the readiness of the JPSS ground system to support 
the NPP mission schedule. Upon the launch of NPP, the ground system 
will be responsible for command, control, communications, and data 
processing. I am pleased to report that the NASA-NOAA team has made 
significant progress over the past 12 months to ensure the JPSS ground 
system will enable NPP to launch next month as planned.
    Since the ground system contracts were transferred last year from 
the Department of Defense (DOD) to NASA, the JPSS program has certified 
close to 1,500 products ready for launch, completed twenty software 
releases, completed numerous operational exercises totaling almost 400 
hours of spacecraft interface time and has closed more than 4,000 work 
requests.
    While the ground system was being readied for the launch of NPP, 
the JPSS program has fulfilled commitments previously made to both the 
DoD and European Organisation for the Exploitation of Meteorological 
Satellites (EUMETSAT), including refurbishment of the MG1 antenna in 
McMurdo Station in Antarctica, to allow it to receive X-band data for 
EUMETSAT's Meteorological Operational satellite programme (MetOp), 
cutting the data latency in half for the mid-morning orbit. The program 
also installed the first of the JPSS receptor sites in McMurdo, 
modified using DoD funds, allowing the Defense Meteorological Satellite 
Program (DMSP) to receive their mission data at McMurdo as well. These 
capabilities will also be used by the JPSS-1 mission when it launches 
in FY 2017.

JPSS Transition Status

    In addition to supporting the NPP mission, the JPSS team has 
focused for the last 12 months on completing the transition from the 
NPOESS program and contracts to the new JPSS program and contracts. The 
transition to JPSS is now complete and NASA, as NOAA's acquisition 
agent, is in control of, and managing, all of the JPSS instrument and 
ground system contracts, including a new NASA contract to produce the 
Advanced Technology Microwave Sounder (ATMS) signed last week. The 
change to NASA-held and managed contracts has been beneficial for a 
number of reasons, including, NASA's expertise as an experienced space 
acquisition organization and government management of separate 
contracts for each major element (spacecraft, instruments and ground 
segments). Through the transition, the instrument vendors continued to 
make progress in the development of the flight units for JPSS-1, and a 
spacecraft contract was awarded to Ball Aerospace for JPSS-1. Assuming 
full funding of the President's FY 2012 budget request for NOAA, it is 
anticipated that JPSS-1 will be ready to launch in the first quarter of 
FY 2017, five years after the planned October launch of NPP.

Conclusion

    NASA and NOAA are committed to the JPSS program, and ensuring the 
success of this program is essential to both agencies and the Nation. 
The requirements are defined, the program is in place, and with the 
requested funding NASA and NOAA are confident that the agencies can 
implement the JPSS program as planned. NOAA and NASA are striving to 
ensure that weather and environmental requirements are met on the most 
efficient and predictable schedule without reducing system capabilities 
or further increasing risk.
    With the delivery of the NPP satellite to Vandenberg Air Force Base 
in Lompoc, California, on August 30, 2011, the first fruits of the 
NASA-NOAA partnership for JPSS are undergoing final preparations for a 
planned launch on October 25, 2011. With your continued support, NASA 
expects this partnership to successfully develop and deliver the JPSS-1 
mission for launch in FY 2017, thus ensuring continued support of 
NOAA's weather and environmental monitoring program.
    Mr. Chairman, thank you for the opportunity to testify today. I 
appreciate the continued support of this Subcommittee and the Congress, 
and I would be pleased to respond to any questions you or the other 
Members of the Subcommittee may have.

    Chairman Broun. Thank you, Mr. Scolese.
    I now recognize our final witness, Mr. David Powner. Sir, 
you may proceed. You are recognized for five minutes.

            TESTIMONY OF MR. DAVID POWNER, DIRECTOR,

           INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Broun, Chairman Harris, Ranking Member 
Miller and Members of the Subcommittees, we appreciate the 
opportunity to testify this morning on the JPSS program.
    Last summer when I testified before this Subcommittee, we 
stressed the importance of addressing key transition risks 
associated with the disbanding of NPOESS and establishing a new 
program. We also emphasized the importance of expediting 
decisions on the cost, launch schedules and the functionality 
to be delivered with this new satellite acquisition. NOAA and 
NASA have made solid progress transferring contracts and 
establishing an experienced program management team. To date, 
the contracts for the spacecraft and the five JPSS sensors have 
been transferred from NPOESS that was previously managed by DOD 
to NASA.
    Additionally, just last week, a new JPSS Director started 
bringing solid aerospace engineering and almost three decades 
of experience to the program. Although this progress is 
commendable, I would like to stress that transitioning program 
management to NASA alone does not guarantee success. In fact, 
we have listed NASA's acquisition management as high risk since 
1990, given its inconsistent performance in delivering large-
scale projects. Given that, it is imperative that NOAA performs 
rigorous executive-level oversight of JPSS. The program 
management plan that Dr. Sullivan mentioned should lay out the 
details of the program's needed governance structure.
    Although there is good news in the transferring of 
contracts and establishing an experienced management team, the 
JPSS program still needs to make firm decisions on the 
program's cost, launch dates and the functionality to be 
delivered. Eighteen months have passed since the disbanding 
decision and there is still no baseline and NOAA does not plan 
to establish this baseline until later this year. Clearly, 
budget uncertainties have contributed to this. I would like to 
highlight why this baseline is so important.
    First, from a cost perspective, it is important that NOAA 
bases its cost estimate on realistic budget scenarios. The 
program has an internal cost estimate but is unwilling to 
disclose this until an independent cost estimate is completed. 
NOAA told us this estimate should be around $12 billion. If 
estimates come in higher than this $12 billion market, it 
appears NOAA is willing to reduce functionality to keep overall 
costs within this ballpark.
    Another reason the baseline is critical is to know exactly 
when the JPSS sensors will be launched so that potential gaps 
in satellite coverage can be managed. My written statement lays 
out these potential gaps. The bottom line is this: we are 
banking on NPP, the demonstration satellite now used for 
operations, to provide coverage from roughly 2012 to 2017. Due 
to a necessary on-orbit checkout period, the anticipated gap in 
coverage between NPP and the first JPSS satellite is expected 
to be around 6 to 12 months. This gap will increase if NPP 
doesn't last the full five years, and opinions on this vary. 
For example, some NASA engineers are concerned that selected 
NPP sensors will only last three years. This gap will also 
increase if the first JPSS launch is delayed beyond late 2016. 
These gaps are critical, Mr. Chairman. NOAA reports that data 
gaps could place lives, property and critical infrastructure in 
danger.
    My two key takeaways this morning are, one, baseline the 
program as soon as possible, and two, have contingency plans in 
place to manage the potential gaps in coverage. Regarding the 
gap, first and foremost is NPP performance and is ability to 
last roughly five years. We will get our first indication of 
this soon after next month's launch. Also launching the first 
JPSS bird in late 2016 at a minimum is key. NOAA has been 
proactively managing this situation and is looking at options 
to remove functionality so that the first JPSS satellite is 
launched possibly sooner. Expediting these decisions and 
contingencies are critical to ensuring the continuity of 
weather and climate data.
    Mr. Chairman, this concludes my statement. Thank you for 
your leadership and oversight of this acquisition.
    [The prepared statement of Mr. Powner follows:]
   Prepared Statement of Mr. David A. Powner, Director, Information 
     Technology Management Issues, Government Accountability Office



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Broun. Thank you, Mr. Powner. I appreciate the 
witnesses all holding their statements to five minutes just 
like we had a great example from Mr. Miller holding your 
statement to five minutes--well, we will call it five minutes.
    So anyway, I want to thank you all for your testimony. I am 
reminding Members that Committee rules limit questioning to 
five minutes, so please limit your questions to five minutes 
for the sake of expediency, and the witnesses will please 
answer in a short time so we can get through as many questions 
as possible because we still have votes looming. The Chair at 
this point will open the round of questions. The Chair 
recognizes himself for five minutes.
    Section 103(a)(1) of the NASA Authorization Act of 2005 and 
Section 112(b)(1) of the Consolidated Appropriations Act of 
2008 prevent NASA and NOAA from entering into a contract for 
development of a major program unless the respective 
Administrators determine that the technical, cost and schedule 
risks of the program are clearly identified and the program has 
developed a plan to manage those risks. The laws also direct 
NASA and NOAA to transmit a report to this Committee at least 
30 days before entering into a contract for development under a 
major program. Has NOAA or NASA provided a baseline for JPSS as 
required by the NASA Authorization Act of 2005 and the 
Consolidated Appropriations Act of 2008?
    Dr. Sullivan. Mr. Chairman, let us be clear, if we may, on 
the various usages of the word ``baseline'' because in some 
contexts it means different things. We have an established 
program estimate of the budget. We now have a firm requirements 
document, the Level 1 Requirements Document, and on the basis 
of those two parameters, we have moved forward with this 
program. I can't speak to when reports were submitted prior to 
May of this year when I came aboard as NOAA Deputy 
Administrator but I would be happy to look into those matters 
for you.
    Chairman Broun. Well, please do because the law requires a 
report to be submitted to the Committee 30 days before entering 
into a contract.
    Mr. Scolese, could you answer that question, please?
    Mr. Scolese. I will have to go off and take that for the 
record, sir. The plan was identified last year as we discussed, 
and I would have to go off and look at what was actually 
submitted.

    (Mr. Scolese's response submitted after hearing pertaining to 
material requested for the record by Chairman Broun: ``Not yet, as the 
report is due when an initial program baseline is established. NOAA 
will submit a baseline for JPSS in accordance with the direction 
provided in the Consolidated and Further Continuing Appropriations Act, 
201. NASA, as the acquisition agent under a reimbursable agreement with 
NOAA, will be assisting NOAA in the preparation of those report.
    Consistent with NASA Space Flight Program and Project Management 
Requirements (NPR 7120.5), and the requirement in the Consolidated and 
Further Continuing Appropriations Act, 2012, the baseline for the JPSS-
1 mission will be established at its confirmation review (Key Decision 
Point C) in 2012.'')

    Chairman Broun. Mr. Powner during his testimony said that 
no baseline has been provided, and he also discussed very 
eloquently why that baseline is extremely important. GAO is 
saying that no baseline has been provided. Can you give us some 
time frame of when we can expect that baseline, Dr. Sullivan?
    Dr. Sullivan. Mr. Chairman, with the L1RD, the requirements 
document in hand, and when we have our independent cost 
estimate completed, which should be later this year, those two 
will be reconciled. Laying that against the first-quarter 
fiscal year 2017 current target launch date, we then can define 
for you a program path forward and we will get that to you as 
soon as we can. We will certainly reconcile that and 
accommodate that in the President's fiscal year 2013 budget 
request.
    Chairman Broun. I would appreciate that. I know that you 
have some problems, as Ranking Member Miller said. There are a 
lot of snakebites going on in this program, and we need to cure 
the snakebites and go forward and get the flying birds, and 
that is what I think all of us on both sides of the aisle are 
extremely interested in doing.
    What are the differences between NPP and JPSS-1 and how 
much did the NPP cost, how much will JPSS cost and why is it so 
expensive to produce essentially a carbon copy, from my 
understanding, a satellite that is already built and prepared 
to launch in just a few weeks? Both of you, or either of you.
    Mr. Scolese. Well, we work very closely together so 
hopefully you will see that in our answers as well. To answer 
the last part first, the JPSS-1 satellite is not an identical 
clone of NPP. As we talked, as was mentioned earlier, NPP is a 
technology demonstration satellite. Its prime purpose was and 
still is to go off and verify the technologies, make sure that 
the measurements can be made so requirements for lifetime were 
not there. It was to go off and verify that we could do and 
meet the requirements. As Mr. Powner pointed out, there is some 
concern----
    Chairman Broun. Mr. Scolese, I have got about 30 seconds 
left, and I asked you about cost, and that is the important 
thing.
    Mr. Scolese. Well, the short answer then, sir, is that they 
are not identical. There is still additional work that needs to 
be done on the sensors to guarantee the seven-year life. And as 
far as the spacecraft is concerned, we did buy that fixed price 
so it is about the same price between NPP and JPSS-1, which is 
why you are not seeing a different price on that, but there is 
still development work on the sensors that has to be done.
    Chairman Broun. My time is expired. I now recognize Mr. 
Miller for five minutes.
    Mr. Miller. Mr. Chairman, I wouldn't have objected if you 
had taken another 20 seconds.
    Dr. Broun asked about the first of Mr. Powner's takeaways. 
I want to ask more about the second and that is the contingency 
planning for gaps in the data. Dr. Sullivan pointed out that we 
have had just about every extreme event imaginable in the last 
year--droughts, floods, fires, tornados, hurricanes. All of 
that would have been--it would have been very helpful to have 
as accurate a forecast as possible. Presumably the satellite 
would not have helped with the earthquake, but otherwise all 
the extreme events, the more information we had for 
forecasting, the better. Fortunately, there has been no 
evidence of locusts to this point. But we are on our 15th named 
hurricane.
    Dr. Sullivan, I know that we are pinning our hopes on the 
success and on the longevity of NPP but what are the other 
plans for mitigating the potential gaps in coverage that we are 
facing over the next few years?
    Dr. Sullivan. We continue to work hard on that, Mr. Miller, 
and we will work contingencies as we go forward. I would like 
to just emphasize two factors that really drive our concern to 
have the afternoon orbit filled. One is weather forecast models 
are run on 6-hour cycles, 7 a.m., 1 p.m. and then 7 p.m., 1 
a.m., and as you can appreciate, a satellite that comes over 
just a few hours ahead of the 7 a.m. and 1 p.m. run give you 
fresh data, current data, a current snapshot of the earth 
similarly for the 7 p.m., 1 a.m. run, the afternoon data is 
very important.
    Second point of importance about the afternoon orbit has to 
do with the earth itself and in particular for the continental 
United States to sample the atmosphere early in the morning 
when it tends to be a bit quiescent from the overnight hours 
and then sample it again in more energetic and active convetive 
phase of the day. Those two very different snapshots are 
invaluable information, if you will. They are important 
information content for the models. That is why if there is not 
a satellite active in the afternoon orbit, it is not just as 
simple as taking the morning orbit bird or taking some other 
satellite. The time of day actually matters.
    We certainly will continue to use data from the morning 
orbit that is covered by the European MetOp satellite. We have 
and have had a number of bilateral and multilateral data 
exchange arrangements with other nations. Japan has a satellite 
coming along, GCOM-W1, that will host an instrument that bears 
some relevance to our needs. We are working on arrangements to 
take data from that satellite. Taking the data to our command 
center is one thing; making it possible technically in 
formatting and accuracy and precision to get that data into the 
numerical model is another not trivial technical challenge, but 
we are looking at that. So you name a nation that has a polar- 
orbiting satellite with a relevant instrument that has the 
accuracy, precision and stability needed to not degrade the 
forecast capability of our models and we will make every effort 
to take advantage of that data.
    Mr. Miller. Thank you.
    Mr. Powner, it does appear that the gap in coverage is 
connected to funding problems but also obviously the management 
issues. I mean, we have now been dealing with the problems in 
this program when we had a Republican President, a Republican 
Congress; when we had a Republican President and Democratic 
Congress; a Democratic Congress and a Democratic President; and 
now a Democratic President and Republican Congress. It seems 
like this is a program--this program's problems are problems 
for all seasons.
    The criticisms of GAO--I know GAO remains critical of this 
program, but your criticisms do seem much less harsh than they 
have in the past, and there are management issues remaining. I 
know most of your criticism is about the need for a baseline, 
but do you think that the new management, the joint partnership 
between NOAA and NASA, versus the old management structure, or 
are you pretty confident that that is the management structure 
that can this program on track?
    Mr. Powner. Clearly, if you look historically when DOD was 
in the picture, it is a much more streamlined management 
structure. I think everyone is happier on both sides. We feel a 
lot more comfortable with that. I do think we would like to see 
specifics about how the executive oversight will occur on the 
program because historically looking at NPOESS, the executive 
oversight was very poor. There was a question earlier, Chairman 
Harris, you asked about the problems of the past. The problems 
of the past were poor executive oversight and poor program 
management, too much technical complexity, and all those things 
we can't lose sight of and we need to stay on your toes from a 
program management point of view. So yes, we are more 
optimistic than we have been in the past but again, it is 
important to continue to keep everyone on their toes. Hearings 
like this clearly do that, so thank you, Ranking Member Miller.
    Mr. Miller. My time has expired and I yield back.
    Chairman Broun. Thank you, Mr. Miller.
    Now I yield five minutes to my friend, Chairman Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman, and again, I 
thank the panel for coming here today.
    Dr. Sullivan, I just want to clear up one thing you said 
because, you know, it is obviously a heart-wrenching story you 
told about Joplin, but the polar satellites really have very 
little to do with tornado warnings, don't they? I mean, in your 
testimony, I think it says they are 3 to 7 day, and I assume 
you didn't give 3- to 7-day warnings to Joplin about that 
tornado.
    Dr. Sullivan. In both the Tuscaloosa outbreaks in April and 
the Joplin outbreaks, Dr. Harris, we did indeed warn those 
communities 3 days in advance of----
    Mr. Harris. But that is not what that person responded to 
was not the 3-day warning. They responded to the ground-based 
warnings that you have. Let us just be honest. I understand the 
importance of telling that story but this hearing is about 
polar satellites and what data we need from polar satellites, 
so let us get to the core of that.
    You know, if I don't have enough money to buy all the bells 
and whistles on a car because the economy is bad, I leave out 
the moon roof, maybe the sound system, maybe get the stripped-
down model. How much of the climate change, the long-term 
climate change sensors on that JPSS, how much are they costing 
of that project, and in fact, wouldn't eliminating the long-
range climate sensors so that we can focus on the core mission, 
what I think the core mission of the weather service is, which 
is weather. Wouldn't that in fact shorten the time frame to 
launch that satellite and decrease the cost?
    Dr. Sullivan. Those sensors were in fact demanifested at an 
earlier milestone. I think Mr. Scolese can give you the 
accurate dates that predates my coming back to NOAA. So they 
are no longer carried on the JPSS program budget.
    Mr. Harris. Nothing at all to do with long-range climate?
    Dr. Sullivan. No, sir.
    Mr. Harris. Good for you.
    Now, let me ask a question here. Mr. Powner, there is 
something disturbing in the GAO report because it says that 
part of this gap is because some of the selected NPP sensors 
may only last three years because of workmanship issues. Am I 
missing something here? This isn't in space yet. We are going 
to launch something up that has a workmanship issue and 
therefore potentially creating a gap in our knowledge?
    Mr. Powner. Correct. There would have been questions about 
workmanship issues associated with several satellites. Their 
example is like CrIS, when you look at vibration testing, there 
was an issue with vibration testing, and we can go right on 
down the line. Many of these issues were highlighted over the 
years. The fundamental question is, due to some of those 
workmanship issues, it was originally to be a research 
satellite so it wasn't built with the rigor that you would 
expect with an operational satellite, so keep that in mind. 
Some of those things are questionable, and if you listen to 
some of the internal NASA engineers, there is a question about 
whether it will last, some of those sensors, the full five 
years.
    Mr. Harris. So we are going to launch what amounts to a 
faulty satellite knowing that it is not going to--I mean, this 
is just mind-boggling to me. I mean, did we pay the people who 
did this workmanship? Did we pay the engineers who designed it? 
I don't get it. Maybe it is a rhetorical question.
    Let me ask, Dr. Sullivan, let me just go back to this issue 
of the gap because aren't there--in fact, if this information 
is so valuable, and I know we share it with governments 
throughout the world, with other countries, so this information 
has value. Now, in the American system, when something has 
value, someone in the private sector's ears usually go up and 
say wait a minute, I might be able to provide this. I scoured 
your testimony. I don't see anything about how we might in fact 
involve the private sector in solving some of these issues that 
we have in getting this data gap filled.
    Dr. Sullivan. I would be happy, Dr. Harris, to give you 
some information on requests for information that we have 
indeed put out to private sector companies exploring the 
possibility of providing data across the full spectrum of those 
mission needs.
    Mr. Harris. Then why isn't it included in your testimony?
    Dr. Sullivan. Omission on my part. It should have been----
    Mr. Harris. Well, I mean, look, if this gap is so--what I 
need to know and I think the Committee needs to know is, you 
know, exactly all the things we are doing to fill that data 
gap, and that is a glaring omission, unless you believe that 
only the government can do the job. Now, that is--and I suspect 
that is the problem here.
    Dr. Sullivan. I do believe, Dr. Harris, when it comes to 
the high precision, high accuracy and highly stable data of 
atmospheric sounding that is essential, that is truly the 
lifeblood of weather forecasting. We have seen no proposals or 
responders that demonstrate any sense of a market other than 
the United States government for instruments of that class.
    Mr. Harris. Okay. Well, I have got to tell you, you know, 
medical instruments, you know, we also need a little accuracy 
and the government doesn't make any. You know, the private 
sector makes high-quality, dependable--when a constituent, a 
citizen in America's life is at stake, true life is at stake on 
a daily basis, we trust the private sector to gain data for 
them, so I suggest that you consider that as well.
    Thank you, Mr. Chairman.
    Chairman Broun. Thank you, Dr. Harris.
    Now the Chairman will recognize another physician, Dr. 
Benishek, for five minutes. Dr. Benishek.
    Mr. Benishek. Good morning. Thank you, Mr. Chairman.
    I am just sort of amazed by the fact that these things are 
so expensive and we don't seem to be able to manage the 
construction on a reasonable basis. It seems that we went from 
four satellites to two and it is costing more money. How is 
that possible?
    Mr. Scolese. Well, I am not sure that there is a very good 
answer for that. NASA and NOAA really took over this program at 
the restructuring and we had to go off and look at what we 
could do within the resources that we have available and what 
we could project, and that is how we ended up where we were. 
The original program, as was stated, started in 1994 as 
principally a Department of Defense and a NOAA program that was 
formulated and finalized, I believe, in the late 1990s, early 
2000s. So we are really talking two different programs here.
    Mr. Benishek. Well, it just seems that we are talking about 
$10 billion, and we went from four satellites to two. I don't 
know, how does it all get--how do we lose $5 billion? How do we 
go from, you know, $2.5 billion a satellite to $6 billion? I 
just don't see how it could be such a cost overrun.
    Mr. Scolese. Well, I think we have to look at all the 
pieces that are in the program, and there is a ground system 
that is required to bring down the data or collect the data 
from the satellite. It comes down to the ground. That is a 
piece of the total program, so you can't just divide it by the 
number of satellites. It is also the ground system there and 
they provide them to--and you have to help me here, I think 
four locations for the civil program as well as for the DOD 
programs. So there is more than just the satellites that are in 
there. It is also the ground systems and it is the software 
that will then take that data and turn it into useful products.
    Mr. Benishek. All right. What exactly are we getting with 
the new satellite that didn't have with the old satellite? What 
is the upgrades? What is new about it that is costing us so 
much money?
    Dr. Sullivan. We are not really changing the set of 
measurements that we make, Mr. Benishek. The instruments that 
we have aboard or that are slated for NPP and JPSS are 
sounders, imagers, really the workhorse instruments that are 
the backbone of weather forecasting. The state of the art and 
the nature of current manufacturing, the complexity of those 
instruments increases incrementally every 10 or 20 years as the 
Nation goes into a new manufacturing phase for the polar 
satellites, but it is certainly not a mission creep and an 
expansion of what we are doing. The complexity in terms of 
spatial resolution, more fine-scaled measurement to support the 
accuracy of forecasting that we have today and the time limits 
of data again to sustain the accuracy of forecasting that we 
have today costs more nowadays than it did in the 1970s.
    Mr. Benishek. All right. Mr. Harris, would you like to have 
the rest of my time?
    Mr. Harris. No, that is fine.
    Mr. Benishek. Then I will yield back.
    Mr. Harris. [Presiding] I would like to recognize for five 
minutes the gentlelady from Florida.
    Ms. Adams. Thank you, Mr. Chair.
    You know, I was going through and listening to everything, 
and it says since the 1960s we have had the two separate 
operational polar-orbiting meteorological satellite systems. 
Since 2003 there have been hearings to find out, you know, 
maintain some form of oversight of the JPSS program, which 
found itself significantly over budget, behind schedule and 
considerably descoped. I am listening to your discussion today, 
and then it goes on and says in 1993 there was an attempt to 
streamline the programs. It brought them together, created the 
NPOESS, and then later on they say that the program was fraught 
with problems, delays, inefficiencies and severe cost overruns 
that in February 2010 the Office of Science and Technology 
Policy announced a fundamental reorganization of the program. 
So here we go.
    Then it goes back in and gives a little bit more detail 
about in 2003 again the Committee began serious oversight 
because of the major performance problems, schedule delays for 
the primary imaging instruments, which caused significant 
overruns, all types of management structure that delayed rather 
than fostered decisions at critical moments. Again, fast 
forward, at a Science Committee hearing on June 17, 2009, 
witnesses testified before the Committee that the program 
leadership had deteriorated to the point that only White House 
intervention would assure that there would ever be any NPOESS 
satellites at all.
    So we are sitting here and I am listening to all of this 
discussion, and I have a few questions. What percentage of your 
budget is devoted to the GOES and JPSS programs essentially 
being run by NASA?
    Dr. Sullivan. I am sorry, Ms. Adams. Are you asking that 
question with respect to the NOAA budget or----
    Ms. Adams. Yes, NOAA's budget. What percentage?
    Dr. Sullivan. I can give you an estimate. We would be happy 
to provide you the precise figures.
    Ms. Adams. Well, can you tell me, is it essentially a pass-
through to NASA?
    Dr. Sullivan. It is not a 100 percent pass-through of the 
appropriated funds. A sizable portion passes through for 
satellite acquisition but another portion stays with us for the 
ground system, for flight operations, for algorithm 
development. A portion of the total program that brings the 
data to the ground turns it into useful records that can be 
adjusted into the weather models. That portion is NOAA's direct 
responsibility.
    Ms. Adams. Do we know if NASA is spending any of their 
funding on the JPSS program and how much it is?
    Dr. Sullivan. We do know that the NOAA funding passed 
through to NASA for the JPSS program is being spent to develop 
JPSS. I can let Mr. Scolese speak to the current budget 
numbers.
    Mr. Scolese. It is a fully reimbursable program so we are 
using NOAA funds.
    Ms. Adams. So there is no cross-agency support funds being 
used?
    Mr. Scolese. That is correct.
    Ms. Adams. Okay. I am going to try to get as many of my 
questions answered as possible.
    Mr. Scolese. One point, on NPP, which was a research 
satellite, NASA did and is paying for the bus and for the 
launch.
    Ms. Adams. So you----
    Mr. Scolese. But that was a different program. That wasn't 
originally part----
    Ms. Adams. But it is part of the NOAA issues, correct?
    Mr. Scolese. Well, it is going to----
    Ms. Adams. So there is some funding, NASA's funding?
    Mr. Scolese. For NPP, yes, that is correct.
    Ms. Adams. Dr. Sullivan, it is fair to say that some JPSS 
sensors are more focused on providing data essential for 
weather forecasting, correct?
    Dr. Sullivan. Yes, it is.
    Ms. Adams. While others are focused on long-term climate 
science, correct?
    Dr. Sullivan. No. The JPSS satellite is tailored to NOAA's 
weather-observing requirements.
    Ms. Adams. So no sensors whatsoever?
    Dr. Sullivan. No, ma'am.
    Ms. Adams. Okay. That is not what we have been told, so I 
am just curious.
    Dr. Sullivan. There were climate sensors in an earlier 
version of the JPSS program definition. They were descoped. I 
would have to verify the time for you but a year or more ago. 
They are in a budget line within NOAA to try to launch those 
sensors on other platforms but they are not part of the JPSS 
program.
    Ms. Adams. So will they be launched on free flyers or 
something else?
    Dr. Sullivan. We are still evaluating options to try to 
support those on free flyers or hitchhiker payloads on 
commercial buses, and we expect to have some results from those 
evaluations by the end of the year or early into 2012.
    Ms. Adams. Will you have the costs associated with that?
    Dr. Sullivan. Yes, we should.
    Ms. Adams. I yield back.
    Chairman Broun. I thank you, Ms. Adams.
    Now I recognize Dr. Benishek--not Dr. Benishek, Dr. Bucshon 
for five minutes. Go ahead, Dr. Bucshon.
    Mr. Bucshon. Mr. Chairman, I don't have anything specific 
so if you want me to yield back my time to you, I can do that.
    Chairman Broun. Very good. We will go through a second 
round of questions then, and because of votes now projected at 
11:30, we will limit the round of questions to three minutes 
per Member, so I recognize myself for three minutes.
    Let us assume that the government will be funded by CRs for 
the remainder of the year and most likely through all of 2012. 
Unfortunately, I think that is a real good bet. How will NOAA 
and NASA prioritize the work on JPSS if it only gets CR funded? 
Both of you.
    Dr. Sullivan. Well, JPSS is certainly one of the highest 
priorities in NOAA's mission portfolio so it would get a very 
high ranking. It is not the only important and worthy thing the 
agency does but I think you could see in our actions to date 
during fiscal year 2011 the importance that we place on it.
    Chairman Broun. And Mr. Scolese, I would assume same 
answer.
    Mr. Scolese. Yes, sir, and I think I would just add that 
part of those funds will be used with NPP and what we discover 
with NPP in orbit will also play into that as well as the level 
of funds in the CR.
    Chairman Broun. Well, I certainly hope in spite of the 
warnings that we get from Mr. Powner about the workmanship from 
GAO that satellite lasts longer than it was originally designed 
to do.
    What options does this program have for operating in the 
funding environment of continuing CRs, Dr. Sullivan?
    Dr. Sullivan. I am not sure I understand your question, Dr. 
Broun.
    Mr. Broun. If we have continuing resolutions as I very 
firmly believe that we will have, what options do you have in 
that funding environment for continuing to try to get this 
program flying, get the birds in space so that we have this 
data that is necessary and hopefully so that these gaps will be 
as minimized as possible?
    Dr. Sullivan. Well, within resources available under the 
CR, we would certainly focus on the long lead items and try to 
build in the capability to accelerate or continue to move at a 
steady pace. We would as we did in fiscal year 2011 keep a 
clear eye on contract viability and try to not have to go 
through not only the workforce churn but the incremental 
additional expense of terminating and then having to re-up 
contracts. I could ask Mr. Scolese to join in here with further 
comments if you would like.
    Mr. Scolese. Yes. As you know, one of the most difficult 
things for a project manager, and I have been there, is 
uncertainty in what your budget is going to be because you are 
constantly replanning, and so that is the difficulty we will 
have to do. We will have to work with NOAA to try and establish 
our priorities and see if we can't stick with those, but the 
more replanning that we have to do, the more uncertainty there 
is, the more difficult it is to accomplish the goals that we 
all want to accomplish here.
    Chairman Broun. Well, I appreciate that, and I think there 
are things that you really need to look at because I think the 
high certainty is that we are going to have CRs for the rest of 
this Congress, and depending on what the election in 2012 gives 
us, who knows where we are going to go from there. Only the 
Lord himself knows. But I think we are going to have CRs. I 
think this is going to be a huge issue for you guys and so I 
think you all need to look at every single option that is 
available because I want to see these birds flying. I want to 
see it done in the most cost-effective way. I want us to be 
good stewards of the hard-earned money of taxpayers that they 
are giving to this program.
    My time is expired and now I will recognize Mr. Miller for 
three minutes, and I took up almost 23 seconds in that one.
    Mr. Miller. I think I am still a little ahead of you in 
going over.
    Dr. Sullivan, obviously you have received less funding for 
this program than what you forecast, what you expected, what 
you needed, what you were planning for, and you had to 
establish some priorities. How did you decide why the NPP 
satellite and the ground station updates were the top 
priorities for NOAA in the fiscal year 2011 budget?
    Dr. Sullivan. I would highlight two reasons, Mr. Miller. 
One was the time frame in which NPP is slated to fly and what 
we hope its life duration actually will be can serve as a very 
valuable data bridge. Secondly, it really still helps 
substantially in risk reduction, both improving the technology 
and the sensor designs that we have and that we intend for 
JPSS-1, and from a ground segment point of view, to be able to 
prepare to use the data operationally also puts us in a 
position to debug, to get ready for the long-term use of these 
instruments for the entire next generation of polar weather 
satellites, so it made good sense to us in a constrained 
funding environment to be sure we were ready to fly NPP with 
NASA, use the data operationally and get our feet wet, learn 
the lessons that we need to learn to really be able to use that 
system and evaluate its long-term future potential.
    We, as a near second priority, also worked very hard with 
our NASA counterparts to keep key--keep momentum and viable 
contracts on the key long lead items for the JPSS portion of 
the program.
    Mr. Miller. With my remaining time, I will just point out 
that a century ago, I think 4,000 people in Galveston died in a 
hurricane because they had absolutely no forewarning that a 
hurricane was moving onto shore, was out there in Gulf, and 
actually hurricanes in which thousands of people died were 
fairly common throughout--until we developed our better 
forecasting abilities, and I know that this is a program we 
have all criticized. It has been worthy of our criticism. But 
the idea of launching a satellite into space and looking down 
at Earth and developing data from which we could forecast 
weather is actually kind of hard. Thank you.
    Chairman Broun. Thank you, Mr. Miller.
    Dr. Benishek, you are recognized for three minutes.
    Mr. Benishek. I will yield back the remainder of my time. 
Thanks.
    Dr. Sullivan. Mr. Chairman, may I offer clarification to 
Ms. Adams?
    Chairman Broun. She is fixing to be recognized for three 
minutes, so we will see what she wants to do that three minutes 
of time.
    Ms. Adams, you are recognized for three minutes.
    Ms. Adams. Thank you, Mr. Chairman.
    You know, we have talked a lot about continuing resolutions 
and everything else and the cost and everything else. With what 
is going on with JPSS, we haven't seen a request from the 
Administration, OMB or anything, an anomaly for the JPSS 
program. Why?
    Dr. Sullivan. Well, I cannot speak for the OMB and the 
White House on that matter, Ms. Adams. I know we are in 
discussions actively with the Administration about ways in 
which we might jointly handle the program if indeed we go into 
extended continuing resolutions, and I am assured from my 
sources that it is recognized as a very high priority by the 
Administration, but I can't speak to their decisions on 
strategy and CRs.
    Ms. Adams. How long does it take for POES and GOES 
satellites to check out after launch?
    Dr. Sullivan. Well, the amount of time it takes currently 
is reflective of the length of time that we have been running 
the current NOAA K series of satellites, so it is a few months. 
If you will give me a moment, I can pull the exact data up for 
you. We estimate for NPP that that calibration, validation 
period will take a total of about 18 to 24 months to get to the 
point where we have the full, precise, what we call 
Environmental Data Records that are being pulled into numerical 
weather prediction models.
    Ms. Adams. So for GOES and POES, I have about six months. 
Is that correct?
    Dr. Sullivan. Yes, for the current series of satellites 
which we have learned multiple lessons on, we----
    Ms. Adams. How long did it take in the very beginning to 
calibrate them?
    Dr. Sullivan. It certainly was longer for the----
    Ms. Adams. Can you get the Committee that amount?
    Dr. Sullivan. We can get you what the first run was. We 
estimate for----
    Ms. Adams. Let me ask another question here. So you believe 
that the reason for the length of time is because it is a newer 
system?
    Dr. Sullivan. Yes.
    Ms. Adams. And you didn't learn a lot from the first 
systems that you think it is going to take a lot longer this 
time?
    Dr. Sullivan. We did learn a lot from the first systems but 
the algorithms, the actual software to accomplish the similar 
tasks is all new software.
    Ms. Adams. If I remember correctly, you told my colleague 
here that it was essentially the same, just a little upgrade.
    Dr. Sullivan. The software to handle the data streams are 
very different. We do expect to learn a lot between NPP and 
JPSS-1 and have a shorter calibration, validation period then.
    Ms. Adams. Now, I would like to ask how confident GAO is 
that NASA and NOAA will be able to meet the late 2016 launch 
date for JPSS, given the past performances.
    Mr. Powner. I think it is fair to say if you look at the 
NPOESS program, we never hit a date, so we feel good about the 
current program management team that is in place and the 
executives who are overseeing this program. We are hopeful they 
are going to hit it but based on past performance, it is less 
complicated not having DOD in the picture. Okay, that is clear, 
and I think what is important is, let us get that baseline, 
manage to the baseline and deliver in late 2016. That is what 
is really key, to minimize that gap.
    Chairman Broun. Thank you, Ms. Adams. I assume you yield 
back since your time has run out.
    Now the Chairman will recognize Dr. Bucshon if you have any 
questions. Okay.
    Dr. Sullivan, as well as all the witnesses, I am going to 
ask the Members to present written questions for you and you 
can at that time, if you would, please, go ahead and answer Ms. 
Adams' question and fill in any gaps that may be there.
    I thank you all for you all's valuable testimony today and 
I thank the Members for all you all's questions. The Members of 
either Subcommittee may have additional questions, as I have 
already mentioned, and please respond quickly with those 
questions, as I am sure you will. The record will remain open 
for two weeks for additional comments from Members. The 
witnesses are excused.
    I thank you all very much, and the hearing is now 
adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittees were 
adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Kathryn Sullivan, Ph.D.,
Assistant Secretary of Commerce for Environmental Observation
and Prediction and Deputy Administrator, National Oceanic
and Atmospheric Administration

Questions Submitted by Chairman Paul Broun, Subcommittee on

Investigations & Oversight and Chairman Andy Harris,

Subcommittee on Energy & Environment



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Christopher Scolese, Associate Administrator,
National Aeronautics and Space Administration

Questions Submitted by Chairman Paul Broun, Subcommittee on

Investigations & Oversight and Chairman Andy Harris,

Subcommittee on Energy & Environment

Q1.  Please describe, in detail, the differences between NPP and JPSS-
1?

    <bullet>  How much did NPP cost?

A. The estimated life cycle cost to NASA for NPP is $895 million. In 
addition, the NPOESS program provided three instruments that are 
estimated to cost $656 million, excluding the non-recurring development 
costs from the NPOESS program.

The total estimated cost of the NPP satellite, including launch, is 
$1551 million.

    <bullet>  How much will JPSS cost?

A. NASA establishes a cost baseline for programs and projects at Key 
Decision Point (KDP) C, which follows the Preliminary Design Review 
(PDR). PDR for JPSS-1 is scheduled for December 2012, with KDP C 
following in January. At that point a formal baseline will be 
established for the ground and flight elements required for the JPSS-1 
mission. NOAA will provide the formal baseline to Congress after the 
KDP C.

    <bullet>  What are the differences in performance characteristics?

A. The NPP and JPSS-1 satellites are very similar in design. As such, 
we expect their performance to be comparable except for JPSS-1's 
improved reliability over NPP arising from NASA and NOAA's experience 
gained from NPP, allowing the agencies to correct issues in design, 
manufacturing, and test processes.

Though the NPP and JPSS-1 spacecraft buses are largely alike, there are 
some significant differences:

    <bullet>  JPSS-1 has a Ka-band communications link (in addition to 
an X-band communications link) to broadcast the mission data to the 
JPSS Ground System. This communication link makes the spacecraft 
compatible with the Ground System's worldwide receptor network to 
shorten the amount of time between data collection and subsequent 
transmission to the users.

    <bullet>  JPSS-1 has an operational life of seven years versus 
NPP's five years in order to meet NOAA's Level 1 requirements.

    <bullet>  NASA is building JPSS-1 to NASA mission class B standards 
versus NPP's class C. The Class B standards have more stringent mission 
assurance standards in order to improve the spacecraft reliability and 
lifetime.

    <bullet>  JPSS-1 has many changes to address obsolescence from the 
time that NPP was built a decade ago. These changes include newer solar 
array and battery technology, and product line updates to the 
Spacecraft computer, GPS receiver, and inertial reference sensor.

Significant differences between the NPP and JPSS-1 instruments are:

    <bullet>  NPP has two Ozone Mapping and Profiler Suite (OMPS) 
sensors: one viewing Earth nadir and the other viewing the Earth limb. 
JPSS-1 has only the nadir sensor per the Nunn-McCurdy NPOESS descope 
review decision.

    <bullet>  There were many small to medium changes made to the JPSS-
1 instruments to address issues identified during the build and test of 
the NPP instruments. These include changes to improve reliability 
(e.g., cuts and jumpers eliminated from circuit cards, static-sensitive 
parts replaced, launch lock thermal tolerance increased), to improve 
manufacturability (e.g., brazed joint structure changed to single piece 
structure), and to correct performance waivers (e.g., eliminating 
optical crosstalk, improving calibration target for better accuracy, 
reducing electromagnetic sensitivity).

Q2.  How are management decisions made between NOAA, NASA Headquarters, 
and the Goddard Space Flight Center?

A2. NASA and NOAA have been partners for more than 40 years in 
developing the United States' polar and geosynchronous weather 
satellites. With the President's direction last year to restructure the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS), NASA and NOAA have returned to this successful partnership 
structure, with NOAA maintaining overall responsibility of the JPSS 
program and NASA providing technical expertise and serving as the 
program acquisition agent.

  NASA and NOAA use the NASA Program and Project Management Processes 
and Requirements, NPR 7120.5, as the framework for managing JPSS. The 
relative roles between NASA Headquarters and GSFC are the same under 
JPSS as under typical NASA Science missions, while the headquarters 
functions are managed cooperatively between NASA and NOAA. NASA and 
NOAA co-chair both of the decision-making boards (Science Directorate 
Program Management Council and Agency Program Management Council) 
required to approve readiness to proceed at each of the Key Decision 
Point milestones. Both NASA and NOAA sign and control the Level 1 
Requirements Document, which defines the requirements for the program, 
and the Program Plan/Management Control Plan, which defines how the 
program operates. The ultimate decision authority for the program lies 
with NOAA.

    <bullet>  Does a management control document between NOAA and NASA 
exist for the JPSS program? If so, please provide a copy.

  The Program Plan/Management Control Plan for JPSS will define the 
working relationships between NOAA and NASA, and between NASA 
Headquarters and Goddard Space Flight Center. This document is 
currently undergoing final review and NOAA will provide it once 
complete.

Q3.  How much did The Visible Infrared Imager Radiometer Suite (VIIRS) 
cost for the NPP satellite?

A3. Since NOAA's NPOESS program developed the VIIRS instrument flown on 
NPP, NASA defers to NOAA on this question.

    <bullet>  How much will the VIIRS instrument cost for JPSS-1?

  The KDP C, which will establish the project's formal baseline, is 
scheduled for January 2013. NOAA will provide the formal baseline to 
Congress after the KDP C.

Q4.  Does all of the funding for NASA's work on the JPSS program come 
directly from NOAA? If NASA provides funding for JPSS, please indicate 
the amount and what budget line it comes from.

A4. All the funding for NASA's work on JPSS comes from NOAA. JPSS is a 
fully reimbursable program, similar to GOES-R and the earlier POES 
weather program. NOAA funds the work performed by NASA Centers in 
support of these programs. NASA Headquarters has one full-time Program 
Executive for JPSS and varying portions of senior management providing 
oversight of the Center activities, which are funded by NASA's Agency 
Management and Operations budget.

Q5.  How many Federal employees and contractors at NASA are involved in 
the JPSS program?

A5. Currently there are 75 civil servants and 137 support contractors 
involved in JPSS. We expect to increase to 111 civil servants and 204 
support contractors in FY12, assuming full funding of the FY12 budget.

Q6.  Reassigned to NOAA

Q7.  How does the JPSS acquisition model for NOAA compare to the 
acquisition model used by NASA to procure Landsat imagery satellites 
for the Department of the Interior?

A7. NASA has developed both the operational weather satellites for NOAA 
and the Landsat satellites for the Department of the Interior (DOI) for 
more than 40 years. Historically, the weather satellites have been 
developed for NOAA under reimbursable agreements. On the other hand, 
NASA has developed Landsat satellites, including the now in-development 
Landsat Data Continuity Mission (LDCM)/Landsat 8, within the NASA 
appropriation and then transferred operations to USGS. With the 
President's FY 2012 budget request, NASA and DOI have proposed to 
develop Landsat 9 on a reimbursable basis similar to our successful 
historical approach with NOAA weather satellites. This both aligns 
ownership of the mission requirements and funding within the sponsoring 
agency and allows NASA to act as the acquisition agent for DOI.

Questions Submitted by Ranking Member Brad Miller,

Subcommittee on Energy & Environment

Q1.  The NPOESS program had a history of cost over-runs and schedule 
delays that continued up to the day it was ended. How is NASA managing 
development of the JPSS flight and ground elements differently to 
reduce the likelihood of continued over-runs and delays?

A1. NPOESS had a complicated management structure. While NOAA and DoD 
have similar weather system requirements, they differ in some areas, 
which made designing a single system for both uses a challenge. 
Additionally, NASA served as a third independent partner. The NPOESS 
prime contractor was responsible for development of all the 
instruments, ground system and spacecraft, and acted as the system 
integrator for all of these elements. Government oversight of the 
individual elements under development was limited. The Program Office 
for NPOESS was located in Silver Spring, MD, rather than in a 
spacecraft acquisition center and therefore lacked the proper 
personnel, processes and experience.

  For the JPSS program, NASA is the acquisition agent for a single 
customer, NOAA, with clearly defined priorities. NASA is acting as the 
system integrator and is contracting with each of the instrument, 
ground and spacecraft providers directly, allowing for rigorous 
technical and financial government oversight of each element. NASA has 
located the JPSS Program Office at Goddard Space Flight Center, which 
is NASA's primary acquisition center for Earth-observing spacecraft and 
thus has the relevant expertise. This structure builds on the 
successful partnership between NASA and NOAA for the previous polar and 
geosynchronous weather satellites.

  In establishing the JPSS program, we have reduced the number of 
government organizations with decision authority over NOAA's primary 
afternoon orbit requirements and eliminated layers of management 
between the Program and the contractor as it affects this orbit. These 
changes simplify priority-setting, decision-making, and accountability.

  The JPSS program has simplified the satellite architecture to use a 
smaller spacecraft bus based on a commercial platform, eliminating much 
of the risk of the new development in the NPOESS C1 spacecraft. The 
program has also undertaken a review of instrument and spacecraft spare 
hardware, and is making plans to procure critical and long-lead spare 
items to reduce the impact in the event of a hardware failure during 
development.

  NASA and NOAA have also established an independent Standing Review 
Board that will chair major reviews for JPSS starting in FY 2012, 
providing an independent assessment of the management and progress of 
the JPSS program to NASA and NOAA management.

Q2.  The NPOESS Program had a complicated executive and program 
management structure. Explain how the JPSS executive and program 
management structure is different, and why it will be more effective.

A2. NOAA is the only organization providing strategic direction for the 
JPSS program, whereas three different agencies each provided strategic 
direction for NPOESS. Decision-making is not stymied because of 
conflicting priorities or budgeting strategies. NASA has established a 
new Joint Agency Satellite Division (JASD) within the Science Mission 
Directorate at Headquarters to manage all of the NOAA satellite 
developments within NASA. JASD has ready access to all of NASA senior 
management, providing quick resolution to any issues as they develop.

  Areas of authority are also clearly delineated. NOAA provides the 
interface with the user community and international partners and gives 
direction to NASA, which provides the acquisition and technical 
expertise to oversee the instrument, spacecraft, and ground system 
contracts. Under the NPOESS program, the prime contractor had direct 
control of the instrument and ground system development, which allowed 
few opportunities for the government to provide input and direction. 
Under JPSS, there is more program and acquisition oversight by the 
government on instrument and ground system development, since NASA has 
direct management of these contracts. NASA and NOAA report to the NOAA/
NASA Agency Program Management Council (PMC) every month. NOAA co-
chairs this council with NASA, and NOAA's National Environmental 
Satellite, Data, and Information Service (NESDIS) has a monthly 
Management Status Review with NASA to ensure the project stays on 
track.

Q3.  The NPOESS instruments scheduled to fly on NPP have been described 
as less than perfect. How is NASA managing development of the 
instrument differently to ensure performance meets requirements?

A3. The new JPSS Program assigned program management to GSFC, which has 
extensive experience in managing flight projects and developing 
instruments. GSFC has a large, competent staff of engineers who have 
knowledge and experience in all aspects of instrument development. GSFC 
also has unique test and analysis facilities that support instrument 
development.

  GSFC has recruited and assigned personnel with extensive experience 
in the development of spaceflight instruments to manage the 
instruments. The Flight Project Instrument Management and Systems 
Engineering team includes senior personnel with a successful history in 
developing instruments for GOES, HST, SDO, TRMM, EOS, and Landsat. In 
addition, we have stationed government engineering and mission 
assurance personnel in the contractor's VIIRS, CrIS, OMPS, and ATMS 
facilities to oversee and guide instrument development.

  As part of the transition from NPOESS, the JPSS team completed a 
review of all instrument anomalies, concerns, waivers, and risks 
associated with the NPP instruments. We worked methodically through 
these issues, determining which were relevant to the JPSS instruments, 
assessing the consequence of each, and determining the options to 
address or mitigate the issues. As a result of this process, 
approximately two-thirds of the issues from the NPP instruments have 
been eliminated for the JPSS instruments. Plans are underway to 
determine how to further reduce the risk of the remaining issues, and 
we expect many of them will be retired at the time of the launch, 
leading to improved performance and reliability of the JPSS-1 mission. 
Further improvements are already planned for the JPSS-2 instruments.

  The JPSS team has also conducted an extensive review of how well the 
instruments comply with NASA spaceflight engineering and mission 
assurance guidelines. Through a gap analysis process, we have 
identified differences between the previous processes used for 
instrument development and what the NASA standards recommend. We are 
also working methodically through this gap analysis to determine how 
best to address the differences. We have developed an Instrument 
Mission Assurance Requirements (IMAR) document that will be applicable 
to all future hardware builds. This IMAR will ensure that future 
developments use NASA-approved electronic parts, materials, and 
workmanship standards. It will dictate when government inspections are 
required. It also ensures that the instrument contractors have a robust 
mission assurance program with appropriate government insight. JPSS is 
also analyzing the instrument test programs to determine their 
compliance with NASA environmental verification and test standards; 
changes are now being implemented to make the instrument thermal-vacuum 
and electro-magnetic compatibility test programs more robust and bring 
them in line with NASA standards.
Responses by Mr. David A. Powner, Director,
Information Technology Management Issues,
Government Accountability Office

Questions Submitted by Chairman Paul Broun, Subcommittee on

Investigations & Oversight and Chairman Andy Harris,

Subcommittee on Energy & Environment

Q1.  Has NOAA satisfied GAO's inquiries concerning the new structure, 
budgets and timeline for the JPSS program?

A1. Although the JPSS management control plan--which will likely 
describe the structure of the program--has been in development for 
about 21 months, it has not yet been signed, and neither NOAA nor NASA 
could provide a firm time frame for its completion. The JPSS cost and 
schedule baseline is still under development; thus, the expected cost 
of the JPSS program, and its anticipated launch dates, have not yet 
been finalized. The JPSS program estimates that its program baseline 
will be completed no earlier than July 2012.

Questions Submitted by Representative Randy Neugebauer

Q2.  With such unreliable financial projections, I find it hard to 
justify spending seemingly unknown amounts of money that we don't have 
for the JPSS program. Given our nation's financial situation, with over 
$14 trillion in debt, how can we justify continuing to throw money at a 
program that has historically not proved to be a wise or effective 
steward of taxpayer dollars?

A2. NOAA plans for the JPSS program to provide weather and climate data 
continuity in the afternoon orbit. According to NOAA, a gap in these 
data would lead to less accurate and timely weather prediction models 
used to support weather forecasting; and advanced warning of extreme 
events--such as hurricanes, storm surges, and floods--would be 
diminished. The agency reported that this could place lives, property, 
and critical infrastructure in danger. However, because NOAA has not 
yet established a cost or schedule baseline for JPSS, it is not yet 
clear what will be delivered, by when, and at what cost. In May 2010, 
we recommended that NOAA expedite decisions on the expected cost, 
schedule, and capabilities of its planned satellite program. The JPSS 
program estimates that its program baseline will be completed no 
earlier than July 2012.
                              Appendix II:

                              ----------                              


                   Additional Material for the Record



 Additional Material for the Record: ``NASA's Management of the NPOESS 
       Preparatory Project,'' NASA's Office of Inspector General



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
